           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       SINGLE AUDIT OF THE
   COMONWEALTH OF PENNSYLVANIA
       FOR THE FISCAL YEAR
        ENDED JUNE 30, 2007

      March 2009   A-77-09-00007




 MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                      SOCIAL SECURITY
 MEMORANDUM

 Date:     March 19, 2009                                                    Refer To:

 To:       Candace Skurnik
           Director
           Audit Management and Liaison Staff

 From:     Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Pennsylvania for
           the Fiscal Year Ended June 30, 2007 (A-77-09-00007)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Pennsylvania for the fiscal year ended June 30, 2007.
           Our objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           Ernst & Young, LLP, performed the audit. We have not received the results of the desk
           review conducted by the Department of Health and Human Services (HHS). We will
           notify you when we receive the results if HHS determines the audit did not meet Federal
           requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by Ernst & Young, LLP, and the
           reviews performed by HHS. We conducted our review in accordance with the Quality
           Standards for Inspections issued by the President’s Council on Integrity and Efficiency.

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
           Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
           identified by CFDA number 96. SSA is responsible for resolving single audit findings
           reported under this CFDA number.

           The Pennsylvania Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The Pennsylvania DDS is reimbursed for 100 percent of allowable costs.
           The Department of Labor and Industry (L&I) is the Pennsylvania DDS’ parent agency.
Page 2 – Candace Skurnik

The Office of Vocational Rehabilitation (OVR) in L&I provides vocational rehabilitation
services to Social Security beneficiaries. SSA reimburses OVR for direct costs of items
purchased for these individuals and for indirect costs related to providing administrative,
placement, and counseling services as well as for tracking and monitoring work activity.

The single audit reported:

   1. OVR could not provide documentation to support $22,268 reimbursed by SSA for
      vocational rehabilitation services (Attachment A, Pages 1 and 2). The corrective
      action plan indicates that the missing documentation resulted from filing errors,
      and a new filing procedure will be put in place (Attachment A, Page 15).

   2. Payments for unused leave when employees either retired or terminated
      employment were improperly charged to the SSA program, resulting in a
      questioned cost amount of $1,546,376 (Attachment A, Pages 3 through 6). The
      corrective action plan indicates the Commonwealth of Pennsylvania is aware of
      this situation and is addressing it (Attachment A, Page 16).

   3. The Commonwealth of Pennsylvania is not in compliance with the Cash
      Management Improvement Act (CMIA) regulations and procedures for clearance
      pattern requirements and interest calculations. As a result, the interest liability on
      the CMIA Annual Report as submitted to the Department of the Treasury was
      misstated by at least $7,487,910 (Attachment A, Pages 7 through 14). The
      corrective action plan indicates a new check clearance study has been
      completed (Attachment A, Page 16). The Office of the Inspector General is
      conducting an audit of administrative costs claimed by the Pennsylvania DDS
      (A-15-09-19021) that covers the same time period as this single audit. The
      administrative cost audit will review DDS cash draws and make
      recommendations as appropriate. Accordingly, we are not making a
      recommendation related to this finding.

We recommend that SSA:

   1. Determine whether the $22,268 reimbursement to OVR was appropriate and, if
      not, request a refund of the unallowable costs.

   2. Remind OVR to maintain documentation to support SSA reimbursements for
      vocational rehabilitation services.

   3. Determine whether the $1,546,376 in unused leave payments charged to SSA
      was appropriate and, if not, request a refund of the unallowable costs.
Page 3 – Candace Skurnik

The single audit also disclosed the following findings that may impact the DDS’
operations although they are not specifically identified to SSA. I am bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency.

   •   Adequate documentation was not maintained to support that new service
       providers were checked for debarment or suspension status on the List of Parties
       Excluded from Federal Procurement and Nonprocurement Programs
       (Attachment B, Pages 1-3).

   •   Weaknesses in internal controls over personnel resulted when the semi-annual
       certifications for employees working 100 percent on the Rehabilitation Services-
       Vocational Rehabilitation Grants to States program were not included for all
       personnel (Attachment B, Page 4).

Please send copies of the final Audit Clearance Document to Ken Bennett. If you have
questions contact Ken Bennett at (816) 221-0315 extension 1558.




                                                Patrick P. O’Carroll, Jr.

Attachment
Attachment A
Page 1 of 16
Attachment A
Page 2 of 16
Attachment A
Page 3 of 16
Attachment A
Page 4 of 16
Attachment A
Page 5 of 16
Attachment A
Page 6 of 16
Attachment A
Page 7 of 16
Attachment A
Page 8 of 16
Attachment A
Page 9 of 16
Attachment A
Page 10 of 16
Attachment A
Page 11 of 16
Attachment A
Page 12 of 16
Attachment A
Page 13 of 16
Attachment A
Page 14 of 16
Attachment A
Page 15 of 16
Attachment A
Page 16 of 16
Attachment B
  Page 1 of 4
Attachment B
  Page 2 of 4
Attachment B
  Page 3 of 4
Attachment B
  Page 4 of 4
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
